<html>
<title> - GAMING REGULATORY ACT AMENDMENTS ACT OF 1995</title>
<body><pre>[Joint House and Senate Hearing, 104 Congress]
[From the U.S. Government Publishing Office]



                                                          S. HRG. 104-232
.                                                        
                                 GAMING REGULATORY ACT AMENDMENTS ACT
                                                OF 1995                                                                                
  ______________________________________________________________________________________________   
  
                                           JOINT HEARING
                                                
                                             BEFORE THE
                                              
                                     COMMITTEE ON INDIAN AFFAIRS
                                            
                                       UNITED STATES SENATE  
                                
                                              AND THE
                                               
                                  SUBCOMMITTEE ON NATIVE AMERICAN
                                            
                                       AND INSULAR AFFAIRS   
                                       
                                             OF THE
                                             
                                     COMMITTEE ON RESOURCES         
                                     
                                     UNITED STATES HOUSE OF
                                          
                                         REPRESENTATIVES
                                      
                                     ONE HUNDRED FOUTH CONGRESS
                                     
                                           FIRST SESSION
                                             
                                               ON
                                                 
                                              S.487
                                          
                          TO AMEND THE INDIAN GAMING REGULATORY ACT 
                          
                                           ________
                                                                
                                        JUNE 22, 1995
                                       WASHINGTON, D.C.
                                        
                                
                

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                               
                               
  93-810 CC                         
  _____________________________________________________________________________________
  
                     For sale by the U.S. Government Printing Office
                     
    Superintendent of Documents, Congressional Sales Office, Washington, DC 20402

                                 ISBN 0-16-052025-8
                                 
                                 
                                 

 [TEXT NOT AVAILABLE]



</pre></body></html>
